* 1

14
CERTIFICATE OF SERVICE
1, the undersigned, herby certify that three copies of my petition for A
writ of Certiorari, to the United States Supreme Court. Has been served
upon the following parties and were served by first class mail to:
Anthony T. Kovalchick
Deputy Attorney General
Office of Attorney General
1251 Waterfront Place
Mezzanine level
Pittsburgh, PA 15222
Phone (412)565-2543
Fax (412) 565-3028
Respondent
By:

Michael F. Kissell
Pro Se
1027 Quincy Drive
Greensburg, PA 15601
724 834-3920

